         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report


       EPA’s and Mississippi’s Efforts to
       Assess and Restore Public Drinking
       Water Supplies after Hurricane Katrina

       Report No. 2006-P-00011

       February 14, 2006
Report Contributors:	                Carolyn Blair
                                     Geoff Pierce
                                     Steve Schanamann
                                     James Hatfield
                                     Rick Beusse




Abbreviations

CDC            Centers for Disease Control and Prevention
EPA            Environmental Protection Agency
FEMA           Federal Emergency Management Agency
OIG            Office of Inspector General
PCIE           President’s Council on Integrity and Efficiency
TCR            Total Coliform Rule




Cover photo:     Damaged pump station located near the Gulf Coast in Biloxi, Mississippi.
                 EPA OIG photo.
                       U.S. Environmental Protection Agency                                             2006-P-00011

                       Office of Inspector General                                                   February 14, 2006 





                       At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review              EPA’s and Mississippi’s Efforts to Assess and Restore 

This review was conducted in
                                    Public Drinking Water Supplies after Hurricane Katrina

conjunction with the
President’s Council on Integrity     What We Found
and Efficiency as part of its
examination of relief efforts       While we did not assess the extent to which drinking water-related
provided by the Federal             communications were received and understood by the public, the information we
Government in the aftermath of      reviewed indicated that the Mississippi Department of Health and drinking water
Hurricanes Katrina and Rita.        system operators provided the public with timely and accurate information about
We conducted this evaluation        the safety and proper treatment of public drinking water supplies. On August 31,
to assess the Environmental         2005, less than 48 hours after Katrina made landfall, the Department of Health
Protection Agency’s (EPA’s)         issued a blanket boil water notice for all public water systems in the State’s six
and the State of Mississippi’s      most impacted counties located in the coastal region of Mississippi.
efforts to ensure that the public
was provided with safe              Mississippi’s process for determining the safety of drinking water appeared
drinking water after Katrina.       adequate to support the determinations made. EPA Region 4 provided both
                                    technical and logistical support to Mississippi in making these determinations.
Background                          This support included, but was not limited to, providing Mississippi with a
                                    mobile laboratory to perform sample analysis, and providing personnel to help
On August 29, 2005, Hurricane
                                    courier samples to the labs for analysis. Disease monitoring after Hurricane
Katrina, a Category 3 hurricane
                                    Katrina indicated that drinking water supplies were not a source of
on the Safir-Simpson scale,
                                    bacteriological contamination. Neither EPA, the Mississippi Department of
made landfall on the
                                    Health, nor local water system operators we spoke with had identified or heard of
Mississippi coast. Katrina
                                    occurrences of waterborne illnesses or diseases from drinking contaminated
devastated the Gulf Coast of
                                    public water supplies in the 2 months following Hurricane Katrina.
Mississippi and rendered many
public water systems
inoperable. As a result of the      With assistance from EPA and others, the State had assessed the operating status
hurricane, 585 of the State’s       of all but 10 of the State’s 1,368 public water systems by September 15, 2005,
1,368 public water systems          about 2 weeks after Katrina. These systems serve approximately 3.1 million
were placed under a boil water      people in Mississippi. While considerable progress has been made in assessing
notice because of potentially       the operational status of the 1,368 public water systems in Mississippi and
contaminated drinking water.        bringing damaged facilities back on-line, considerable work remains to restore
                                    the drinking water infrastructure to pre-Katrina conditions. Mississippi officials
For further information,            estimated public water system replacements and repairs due to Hurricane Katrina
contact our Office of               will cost approximately $235 million.
Congressional and Public
Liaison at (202) 566-2391.
                                    Our review did not identify any conditions requiring corrective actions and no
To view the full report,            recommendations are made.
click on the following link:
www.epa.gov/oig/reports/2006/
20060214-2006-P-00011.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460




                                                                                  THE INSPECTOR GENERAL



                                        February 14, 2006

MEMORANDUM

SUBJECT:               EPA’s and Mississippi’s Efforts to Assess and Restore
                       Public Drinking Water Supplies after Hurricane Katrina
                       Report No. 2006-P-00011

TO:                    Benjamin H. Grumbles
                       Assistant Administrator for Water

                       James I. Palmer, Jr. 

                       Regional Administrator, EPA Region 4             


This memorandum transmits the results of an Office of Inspector General (OIG) evaluation
regarding our observations of EPA’s and Mississippi’s efforts to assess and restore public
drinking water supplies after Hurricane Katrina. The evaluation did not identify any conditions
requiring corrective actions and no recommendations are made. This report represents the
opinion of the OIG and the findings contained in this report do not necessarily represent the
final EPA position. Our observations regarding the effectiveness of the process used by EPA
and Mississippi to ensure safe drinking water is limited to the public water systems we
reviewed.

The Agency agreed with our observations and did not provide any comments to our draft report.
The Agency’s response to our report can be found in Appendix A. Since our report made no
recommendations, no further action is required.

We appreciate the efforts of EPA and Mississippi officials and staff in working with us to
develop this report. If you or your staff have any questions regarding this report, please contact
me at (202) 566-0847, or Carolyn Copper, Acting Assistant Inspector General for Program
Evaluation, at (202) 566-0829.

                                                     Sincerely,



                                                     Nikki L. Tinsley
Attachment


cc: 	 Steve Johnson, Administrator
      George M. Gray, Ph.D., Assistant Administrator for Research and Development
      Ann Klee, General Counsel
      Mike Mason, Audit Followup Coordinator, Office of Water
      Stephanie Lankford, Audit Followup Coordinator, EPA Region 4
      Rick Linthurst, Acting Deputy Inspector General for Planning, Audit, and Evaluation, OIG
      Carolyn Copper, Acting Assistant Inspector General for Program Evaluation, OIG
      Mark Bialek, Counsel, OIG




                                              ii
Purpose
The President’s Council on Integrity and Efficiency (PCIE), a group of Federal audit and
investigative organizations, is conducting multiple audits, evaluations, and investigations of the
Federal Government’s response to Katrina. This review was conducted in conjunction with the
PCIE as part of its examination of relief efforts provided by the Federal Government in the
aftermath of Hurricanes Katrina and Rita. As such, a copy of the final report will be forwarded
to the PCIE Homeland Security Working Group which is coordinating Inspectors General
reviews of this important subject. As a member of the PCIE, the Environmental Protection
Agency (EPA) Office of Inspector General evaluated several issues related to EPA’s response.
One of these evaluations was to assess EPA’s efforts to ensure that the public was provided with
safe drinking water after Katrina. Our objectives were to answer the following questions:

   1.	 Were people in areas affected by the hurricane provided with timely and accurate 

       information about the safety and proper treatment of their drinking water? 


   2.	 What is EPA’s process for determining that water treatment facilities are providing safe
       drinking water, and does this process appear adequate to support these determinations?

   3.	 Have any waterborne illnesses or diseases from drinking contaminated water been
       identified, and if so, what steps were taken to identify and mitigate the contaminated
       water source?

   4.	 What progress has been made in assessing the operational status of drinking water
       systems and what is the process for getting damaged facilities back on-line?

   5.	 Did EPA follow its emergency response protocols, including those lessons learned from
       the World Trade Center and its responsibilities, as delineated in the National Response
       Plan, to ensure the public had access to safe drinking water?

This report addresses questions 1-4 for actions in the State of Mississippi. We plan to address
questions 1-4 for actions in the State of Louisiana and question 5 in future reports.


Scope and Methodology
To determine the processes EPA and the State of Mississippi used to assess the status of the
public water systems, determine the potability of public drinking water supplies, and
communicate the status of the public water systems to the public, we interviewed officials and
reviewed relevant documentation from EPA’s Office of Water in Washington, DC; EPA
Region 4’s Water Management Division in Atlanta, Georgia; the Mississippi State Department
of Health in Jackson, Mississippi; and selected public water systems in Mississippi.

We tested compliance with these processes at four judgmentally selected public water systems in
Mississippi (Bay St. Louis, Biloxi, Hattiesburg, and Pascagoula). We visited each of these


                                              1

systems and interviewed plant operators; toured their drinking water facilities and/or source
water wells for each of the four public water systems; reviewed onsite records, including water
quality sampling data and emergency response plans; and reviewed public communications
concerning the safety of the drinking water.

Our review focused on community water systems (i.e., public water systems that serve at least
25 year-round residents) that were impacted by Hurricane Katrina.1 We categorized these public
water systems by the type of impact suffered from Katrina, ranging from loss of power and water
pressure to significant structural damage. From these different categories we selected systems
serving a large population relative to the other systems in the same damage category. We also
considered the location of the systems and avoided selecting more than one system from the
same county. Using the above criteria we selected the following systems for review:

            Table 1: Summary of Impacted Public Water Systems Selected for Review
                                                                                                      Population
        Water System                                Damage Incurred                                    Served *
    City of Hattiesburg       Lost power and water pressure                                             48,000
    City of Pascagoula        Lost power and water pressure; some flooding from the                     38,428
                              storm surge in treatment plants; 4 feet of flood water in one
                              plant and 1 to 2 feet of flood water in another
    City of Biloxi            Lost power and pressure; storm surge flooded pumps and                     25,889
                              wells and severely damaged parts of the distribution system
    City of Bay St. Louis     Lost power and pressure; all water system equipment,                         8,350
                              including wells and pumps, were completely covered by the
                              storm surge; many leaks in the distribution lines
* Numbers represent pre-Katrina population served.


Since the public water systems we reviewed were not randomly selected, our observations
regarding the effectiveness of the process used by Mississippi and EPA to ensure safe drinking
water are limited to the four public water systems we visited.

We conducted this evaluation in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States.


Observations
Under extremely challenging circumstances, EPA Region 4 drinking water officials and their
Mississippi counterparts have taken extraordinary and commendable efforts to ensure that public
water service was restored, and to provide potable drinking water as soon as possible after
Hurricane Katrina. Mississippi State officials quickly contacted local officials to assess the
damage and assisted in providing equipment to repair the impacted water systems. Local plant
operators and other officials at the sites we visited remained at their locales, quickly assessed
their situations after the hurricane, and took the actions necessary to provide safe drinking water
despite being personally impacted by the storm. The State responded with the public’s safety in

1
 We did not review the effectiveness of operations to provide the public with alternative water supplies (e.g., bottled
water) while public water systems were inoperable.


                                                        2

mind by issuing an immediate blanket boil water notice for coastal water systems, and the State
did not allow these notices to be lifted until testing in accordance with EPA requirements
confirmed that the drinking water was free from bacterial contamination. Since we did not
identify any issues requiring the immediate attention of EPA or Mississippi officials, this report
does not contain any recommendations.


1. Were people in areas affected by the hurricane provided with timely and accurate
information about the safety and proper treatment of their drinking water?

While we did not assess the extent to which drinking water-related communications were
received and understood by the public, the information we reviewed indicated that the
Mississippi Department of Health and public water system operators provided the public with
timely and accurate information about the safety and proper treatment of the drinking water.

Under the Safe Drinking Water Act, States may apply to EPA for "primacy," or authority to
implement and enforce the Act within their jurisdictions, if they can show that their drinking
water standards will be at least as stringent as the national standards. They also must assure that
water systems meet these standards. EPA granted Mississippi primacy for its drinking water
program in 1977. Accordingly, the Mississippi Department of Health and the local public
systems operators were responsible for ensuring the safe operation of public water systems, and
for issuing notices (i.e., boil water notices) regarding the safety and proper treatment of drinking
water after Katrina.

A standard mechanism for alerting the public to a potential problem with the public water supply
is a boil water notice. These notices are issued to inform the public to boil their water in order to
prevent health impacts from drinking water potentially contaminated with bacteria. These health
impacts can include nausea, diarrhea, and for some susceptible populations, death.

On August 31, 2005, less than 48 hours after Katrina made landfall, the Department of Health
issued a blanket boil water notice for all public water systems in the State’s six most impacted
counties located in the coastal region of Mississippi.2 It issued this notice as a precaution
because of the widespread damage incurred in that area. According to State and EPA officials,
the State placed other systems in the State on boil water notices if, after a preliminary
assessment, it determined that the system had experienced a loss of power or pressure, or was not
capable of properly treating the water. In accordance with its established procedures for issuing
boil water notices, the Department of Health’s public relations office issued the notices to radio
stations, television stations, and newspapers, and posted the notices on the Department of
Health’s Web site.

In addition to the blanket boil water notice issued by the State Department of Health for the
coastal region, local officials also issued boil water notices to the public in their communities.
Since the storm severely damaged and impacted normal communications systems, the local
public water systems had to employ various methods to get their boil water notices to the public.
We were able to verify some of these local system communications. For example, Biloxi city
2
    Counties included George, Hancock, Harrison, Jackson, Pearl River, and Stone.


                                                        3

officials printed newsletters dated September 3 and 4, 2005, that asked the citizens to not drink
the water or flush their toilets. The newsletters were distributed at emergency distribution
centers, city facilities, businesses, and churches in the first week of September. The City of
Hattiesburg also prepared flyers notifying the population that a boil water notice was in effect,
and information on the boil water notice was aired on a Hattiesburg television station on
September 1, 2005. An EPA Region 4 Public Health Service officer deployed to the area
immediately after Katrina told us that radio announcements regarding the need to boil drinking
water were frequently broadcasted on the local radio stations.

Lifting any system’s boil water notice had to be approved by the State Department of Health in
accordance with EPA’s sampling criteria under the Total Coliform Rule (issued June 29, 1989).
For the four systems we reviewed, all systems had passed the State’s requirements before the
boil water notice was lifted.


2. What is EPA’s process for determining that water treatment facilities are providing safe
drinking water, and does this process appear adequate to support these determinations?

The State’s process for determining the safety of drinking water appeared adequate to support the
determinations made. At the State’s request, EPA provided logistical and technical support to
the State during this process. This support included, but was not limited to, providing
Mississippi with a mobile laboratory to perform sample analysis, and providing personnel to help
courier samples to the labs for analysis. EPA depended on information provided by the State of
Mississippi after Hurricane Katrina as the basis for its determination that safe drinking water was
provided to Mississippi residents.

Any boil water notices issued after Katrina could only be lifted by the State Department of
Health. For a system to be taken off a boil water notice, the operator had to show that the system
could maintain continuous power and adequate water pressure, was properly disinfecting the
water, and that the drinking water had no coliform contamination based on two consecutive days
of sampling. The sampling and technical requirements for the coliform testing were generally in
accordance with EPA’s Total Coliform Rule (TCR), which requires all public water systems to
test for total coliform on a monthly basis at pre-determined sampling sites throughout the
distribution system. Under the TCR, the size of the population served by the system determines
the amount of sampling required. The number of samples required to lift the boil water notice
was conveyed to each affected system when the State contacted them after the event. For
Katrina, two consecutive days of 100-percent clean samples had to be obtained before a boil
water notice was lifted. In this regard, the criterion used after Katrina was stricter than the TCR,
which allows for 5 percent or less of the samples to test positive.

The process for lifting boil water notices was followed in each of the four systems we reviewed.
However, in some areas the previously identified normal total coliform sampling locations were
destroyed or not accessible and alternative sampling sites had to be chosen. In addition to the
sampling required to lift the Katrina-related boil water notices, the public water systems also
continued to conduct their regularly scheduled total coliform monthly sampling after the boil
water notices were lifted. For the public water systems in the four cities we reviewed, a total of



                                               4

582 samples testing for total coliform were taken and analyzed during the months of September
and October 2005. If a positive total coliform sample was identified, the sample was then
analyzed for Escherichia coli (also known as E. coli). Only 3 of the 582 samples (.5 percent)
were positive for total coliform, and in each case E. coli was not present. Also, the local
agencies resampled at the sites where the positive samples were taken until they obtained clear
samples on consecutive days. Water systems operators told us that the test for total coliform is
very sensitive and that they believed the positive readings may have been due to sampling or
sample handling errors and not contamination in the system. We verified the accuracy of the
sample results reported to the State Department of Health by reviewing the original sampling
data sheets for all four systems we visited.

The procedures discussed above were not designed to detect the presence of chemicals or other
contaminants in the water that could cause health problems from drinking water over a longer
period. However, Mississippi and EPA public water officials told us they were not concerned
about potential long-term health risks resulting from chemical or other contamination in
Mississippi’s drinking water after Katrina for three reasons. First, they explained that the vast
majority of source water in Mississippi comes from underground aquifers, and that in the hardest
hit coastal regions of Mississippi, these aquifers maintain positive pressure, meaning that flood
water should not have infiltrated the source water. To corroborate their explanation, we
reviewed hydrologic maps showing that coastal systems in the State receive source water from
positive pressure groundwater aquifers generally ranging from about 250 to about 1,100 feet
deep. Second, the total coliform test is a good indicator of whether the drinking water system
has been contaminated by any substance; a negative sample result provides reasonable assurance
that substances other than coliform did not enter the system. As noted above, 99.5 percent of the
samples taken in the 2 months following Katrina were negative. Third, the routine sampling
required by the Safe Drinking Water Act is designed to detect contaminants that could create
health problems from prolonged exposure. The State will be sampling for these contaminants in
early 2006 and increased, targeted monitoring will be completed if problems are identified.

EPA Region 4 appropriately fulfilled its role of oversight and technical assistance to the State,
helping where it could add value, and leaving the implementation role to the State. Mississippi
State and local public water system officials we contacted were pleased and complimentary of
the way EPA fulfilled its oversight and technical assistance role after Hurricane Katrina.


3. Have any waterborne illnesses or diseases from drinking contaminated water been
identified, and if so, what steps were taken to identify and mitigate the contaminated water
source?

Neither EPA, the Mississippi Department of Health, nor local water system operators we spoke
with had identified or heard of occurrences of waterborne illnesses or diseases from drinking
contaminated water in the 2 months following Hurricane Katrina. In accordance with its role and
responsibilities under the National Response Plan, the U.S. Department of Health and Human
Services’ Centers for Disease Control and Prevention (CDC) monitors areas for outbreaks of
disease and illnesses after a disaster. A CDC Morbidity and Mortality Weekly Report Dispatch
dated September 26, 2005, noted that CDC had received reports of clusters of diarrheal disease


                                               5

among persons in evacuation centers but that “three weeks after the initial displacement caused
by Katrina, few cases of diarrheal disease were being reported.”

The Mississippi State epidemiologist provided us with data on the State’s health monitoring after
Katrina. This data indicated a higher rate of gastrointestinal illnesses in the first weeks after the
hurricane for people living in shelters, as was reported by CDC. However, the State
epidemiologist confirmed that no diarrheal outbreaks or related illnesses had been traced to
public drinking water supplies.

EPA, State, and local officials told us that bottled drinking water was plentiful for residents.
Also, water system operators in the coastal regions we visited told us that most residents were
familiar with hurricane procedures and already were aware that they should boil their water after
a hurricane as a precaution to prevent illnesses.


4. What progress has been made in assessing the operational status of drinking water
systems and what is the process for getting damaged facilities back on-line?

Considerable progress has been made in assessing the operational status3 of the 1,368 drinking
water systems in Mississippi and bringing damaged facilities back on-line. These systems serve
approximately 3.1 million people. With assistance from EPA and others, the State had assessed
the operating status of all but 10 of the State’s 1,368 public water systems by September 15,
2005, approximately 2 weeks after Katrina. At that time, 200 of the original 585 systems that
had been placed under boil water notices were still under boil water notices because of damage
incurred from Katrina, and 63 systems were not operating. By September 29, 2005, nearly a
month after Hurricane Katrina, only 106 public water systems were under boil water notices and
34 public systems were not operating. The following schedule shows the significant progress
made to bring impacted systems back on-line.

                Table 2: Progress of Impacted Public Water Systems in Mississippi
                                                                                   Number of         Number of
                   Number of Systems                    Number of               Systems Still on    Systems Still
                   Operating Statewide               Systems Impacted          Boil Water Notice,   Not Operating,
      Date           before Katrina                     by Katrina *                by Date            by Date
    8/28/05               1,368                              --                        --                 --
    9/15/05               1,368                             585                       200                63
    9/29/05               1,368                             585                       106                34
    10/17/05              1,368                             585                       84                 30
    12/02/05              1,368                             585                       40                 16
* Number of systems placed under a boil water notice as a result of Katrina.


Assessing the initial status of the State’s public water systems was a significant endeavour as
1,358 systems were contacted either by phone or in person within 2 weeks after the storm. The
10 systems for which the State was unable to contact an operator were small transient (e.g., rest

3
  The term “operational” means that the drinking water system has sufficient power and pressure to put water into
the distribution system, but not that all pre-Katrina customers were receiving water.



                                                              6

areas) or seasonal (e.g., campgrounds) systems. EPA Region 4 personnel arrived at the State
Office in Jackson, Mississippi, on August 30, 2005, to assist in this effort. Eventually EPA
helped the State obtain over 40 Public Health Service engineers to help conduct these assessment
efforts.

Getting facilities back on-line (i.e., providing water to customers through the distribution system)
after the storm required acquiring emergency resources such as generators, fuel, and treatment
chemicals. These resources were generally obtained through the Federal Emergency
Management Agency (FEMA), with EPA Region 4’s assistance, or in some cases through other
organizations such as the Rural Water Association or other States.

Many systems have already repaired or replaced, or will need to repair or replace, damaged
infrastructure to bring their systems completely back on-line. FEMA’s Public Assistance
Program provides financial assistance to publicly-owned water systems for this purpose. EPA
Region 4 personnel have played a major role in helping Mississippi’s public water systems
obtain this assistance. EPA Region 4 contacted FEMA and obtained a mission assignment to
help the State’s publicly-owned water systems assess their damage, and obtain and prepare the
necessary documentation to apply for assistance under this program.

As of December 2, 2005, 40 public systems were still on boil water notices; 16 systems remained
inoperable because the facilities were destroyed or the customers have left. The Director of the
Mississippi Bureau of Public Water Supply told us that many of the inoperable systems may
never become operational again and that, presently, there is no way to know whether these
systems will ever be rebuilt. The Director also noted that some of the systems considered
operational are serving only a small percentage of their pre-Katrina customers. The system
operators we spoke to in these areas raised concerns about the future availability of funds to
repair or maintain their systems. Because of the widespread destruction of homes and
businesses, and the resulting displacement of residents, these cities’ tax revenues have been
significantly reduced.

Estimating the funding that will be needed to repair the systems is difficult. According to the
Director of the Mississippi Bureau of Public Water Supply, several preliminary cost estimates
have been done, but it is difficult for individual systems to make assessments while “chasing
behind debris trucks fixing leaks.”4 Therefore, estimates to date are based on general data and
are considered preliminary and quite rough. The Director told us that a system-by-system survey
of damage and associated costs would be needed to obtain accurate damage assessments.
According to the Director, the largest issue facing public water systems that are back in service is
replacing meters, meter boxes, valves, and related materials at individual connections where
homes were destroyed. Table 3 on the next page provides more information on Mississippi’s
estimate of its drinking water infrastructure needs.




4
  As trucks clear debris, fire hydrants and water meters are often torn out of the ground, causing leaks that must be
repaired to allow the system to operate.


                                                        7

    Table 3: Estimate of Infrastructure Needs for Mississippi Drinking Water Systems, 

                                      November 2005 

                                                                    Estimated
                                                                     Number         Rough Estimate
     Category           Description of Infrastructure Need           Needed            of Costs
 Coastal counties
 (167 out of        Wells needing rehabilitation                    221 wells           $27,600,000
 185 systems        Wells needing replacement                        87 wells            34,800,000
 impacted)          Tanks needing rehabilitation                    110 tanks            11,000,000
                    Tanks needing replacement                        2 tanks                600,000
                    Miles of distribution system needing           1,282 miles           68,000,000
                      replacement
                    Replacement of meters, meter boxes, valves,    1/3 of coastal        23,300,000
                      etc.                                          population

                    Repair or replace 48 compromised wells on        48 wells            19,200,000
                    43 public water supply systems that do not
                    meet minimum design criteria.

                    Serve residents on private wells with public       900+               4,190,000
                    water supply consisting at a minimum of
                    2 wells at $400,000 each, 1 elevated storage
                    tank at $300,000, about 50 miles of
                    distribution system at $2,640,000, and
                    900 meters/boxes/valves at $500 each.

                        Sub-total: Coastal County Needs                                $188,690,000
 Non-coastal
 counties           Repair/replacement of impacted wells and            387             $46,000,000
 (387 systems       systems
 impacted)
 Katrina Related-
 Drinking Water     Total: Coastal and Non-Coastal Counties                            $234,690,000
 Infrastructure
 Needs



In addition to approximately $235 million in costs to replace and repair damage due to Hurricane
Katrina, an estimated $248 million is needed for infrastructure repairs to meet new Safe Drinking
Water Act standards for disinfection by-products. Thus, the estimate of Mississippi’s total
drinking water infrastructure needs as of mid-November 2005 is about $483 million.




                                                8

                                                                                     Appendix A


MEMORANDUM

SUBJECT: 	 Response to Draft Evaluation Report on EPA’s and Mississippi’s Efforts to Assess
           and Restore Public Drinking Water Supplies after Hurricane Katrina, Assignment
           No. 2005-001748

FROM:          Benjamin H. Grumbles
               Assistant Administrator

TO:            Nikki Tinsley
               Inspector General


        Thank you for the opportunity to comment on your Office’s draft report, EPA’s and
Mississippi’s Efforts to Assess and Restore Public Drinking Water Supplies after Hurricane
Katrina. The hurricanes which struck the Gulf Coast region last fall were significant, not only in
their effects, but in the response they required from the local to the federal levels. We are proud
of the efforts made by personnel from utilities, state programs, non-governmental organizations
and our own employees in working to restore drinking water services after the storm.

        The Agency is very appreciative of the cooperative approach used by the Inspector
General's (IG) Mississippi Drinking Water Team during the investigation of Region 4's response
to Katrina. The many details of the Agency's response to assist the State of Mississippi and its
public water systems, along with the duration of the response, made it critically important for
Region 4 to actively participate in the investigation. It was clear that Region 4's presence with
the IG Team during the State interview, and even more so with the public water supplies visited,
enabled the IG Team to fully understand the context and significance of the information being
conveyed. The end result of your cooperative approach is a report that accurately reflects the
Agency's activities and successful response to this unfortunate and significant event in the lives
of thousands of Mississippians.

         We appreciate the ability to provide comment on this draft report. However, because the
staff from EPA’s Region 4 office was able to clarify and explain the complexities of the
hurricane response, we do not believe that any additional points need to be raised for inclusion in
the final report. We will continue to provide support to the state as needed to address long-term
recovery needs for communities and public water supplies in the affected area.

       Thank you again for the opportunity to comment on this draft report. If you have further
questions, please contact Cynthia Dougherty, Director of the Office of Ground Water and
Drinking Water at (202) 564-3750 or James Giattina, Director of the Water Division in EPA’s
Region 4 office at (404) 562-9470.




                                               9

                                                                                Appendix B


                                     Distribution

EPA Headquarters

               Office of the Administrator
               Assistant Administrator, Office of Water
               Assistant Administrator, Office of Research and Development
               Director, Office of Ground Water and Drinking Water
               Agency Followup Official (the CFO)
               Agency Followup Coordinator
               Associate Administrator for Congressional and Intergovernmental Relations
               Associate Administrator for Public Affairs
               General Counsel
               Inspector General


EPA Region 4

               Regional Administrator
               Director, Water Management Division
               Deputy Director, Water Management Division
               Chief, Drinking Water Section, WMD
               Regional Audit Followup Coordinator


State of Mississippi

               State Health Officer, Department of Health
               Director, Bureau of Public Water Supply, Department of Health
               State Epidemiologist, Department of Health




                                            10 

